      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




August 11, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Lori S. Pilcher/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments Exceeding Charges for Outpatient Services
              Processed by Highmark Medicare Services in Jurisdiction 12 for the Period
              January 1, 2006, Through June 30, 2009 (A-03-10-00004)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Highmark Medicare Services (Highmark)
in Jurisdiction 12. We will issue this report to Highmark within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470
or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-10-
00004.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499

August 12, 2011

Report Number: A-03-10-00004

Mr. Patrick Kiley
President
Highmark Medicare Services
1800 Center Street
Camp Hill, PA 17011

Dear Mr. Kiley:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by Highmark Medicare Services in Jurisdiction 12 for the Period
January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4470 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-10-00004 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Patrick Kiley


cc: Mr. David Vaughn, Vice President, Operations
    Ms. Laura Minter, Program Manager, MAC Jurisdiction 12
    Mr. E. James Bylotas, Director, Quality & Performance Management


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL


REVIEW OF MEDICARE PAYMENTS
    EXCEEDING CHARGES FOR
     OUTPATIENT SERVICES
         PROCESSED BY
 HIGHMARK MEDICARE SERVICES
      IN JURISDICTION 12
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009




                       Daniel R. Levinson
                        Inspector General

                          August 2011
                         A-03-10-00004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Effective October 2007, Highmark Medicare Services (Highmark) became the Medicare
contractor for Jurisdiction 12 in five States. During our audit period (January 2006 through
June 2009), approximately 242 million line items for outpatient services were processed in
Jurisdiction 12, of which 1,546 line items had (1) a Medicare line payment amount that exceeded
the line billed charge amount by at least $1,000 and (2) 3 or more units of service. (A single
Medicare claim from a provider typically includes more than one line item. In this audit, we did
not review entire claims; rather, we reviewed specific line items within the claims that met these
two criteria. Because the terms “payments” and “charges” are generally applied to claims, we
will use “line payment amounts” and “line billed charges.”) We reviewed only 1,507 of these
line items because 8 providers associated with 39 line items were either no longer in business or
included in other reviews.

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
Highmark made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 1,507 selected line items for which Highmark made Medicare payments to providers for
outpatient services during our audit period, 409 were correct. Providers refunded overpayments



                                                i
on 71 line items totaling $1,970,562 prior to our fieldwork. The remaining 1,027 line items were
incorrect and included overpayments totaling $6,802,802 that the providers had not refunded by
the beginning of our audit.

Of the 1,027 incorrect line items:

   •   Providers reported incorrect units of service on 690 line items, resulting in overpayments
       totaling $5,297,006.

   •   Providers billed separately for services on 139 line items for which payment was
       packaged in the payment for the primary service, resulting in overpayments totaling
       $512,514.

   •   Providers used incorrect HCPCS codes on 73 line items, resulting in overpayments
       totaling $304,686.

   •   Providers billed for unallowable services on 60 line items, resulting in overpayments
       totaling $278,694.

   •   Providers billed for the unlabeled use of a drug/biological on 17 line items, resulting in
       overpayments totaling $146,847.

   •   Providers did not provide supporting documentation for 26 line items, resulting in
       overpayments totaling $128,116.

   •   Providers reported a combination of incorrect units of service and incorrect HCPCS
       codes on 13 line items, resulting in overpayments totaling $105,462.

   •   Highmark incorrectly calculated the payment on nine line items, resulting in
       overpayments totaling $29,477.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Highmark:

   •   recover the $6,802,802 in identified overpayments,

   •   implement system edits that identify line item payments that exceed billed charges by a
       prescribed amount, and

   •   use the results of this audit in its provider education activities.


                                                  ii
HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Highmark’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Medicare Contractors............................................................................ 1
              Claims for Outpatient Services ............................................................................. 1
              Highmark Medicare Services ................................................................................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ............................................................................... 4

          OVERPAYMENTS FOR SELECTED LINE ITEMS ..................................................... 4
               Incorrect Number of Units of Service ................................................................... 4
               Payment for Packaged Services ............................................................................ 5
               Incorrect Healthcare Common Procedure Coding System Codes ........................ 5
               Services Not Allowable for Medicare Reimbursement ........................................ 6
               Unlabeled Use of a Drug/Biological ..................................................................... 6
               Unsupported Services ........................................................................................... 7
               Combination of Incorrect Number of Units of Service and
                  Incorrect Healthcare Common Procedure Coding System Codes ................... 7
               Incorrect Medicare Reimbursement ...................................................................... 7

          CAUSES OF INCORRECT MEDICARE PAYMENTS ................................................. 7

          RECOMMENDATIONS .................................................................................................. 8

          HIGHMARK MEDICARE SERVICES COMMENTS ................................................... 8

APPENDIX

          HIGHMARK MEDICARE SERVICES COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Highmark Medicare Services

Effective October 2007, Highmark Medicare Services (Highmark) became the Medicare
administrative contractor for Jurisdiction 12 in five States: Delaware, the District of Columbia,
Maryland, New Jersey, and Pennsylvania. 3 From January 2006 through June 2009,
approximately 242 million line items for outpatient services were processed in Jurisdiction 12.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
Highmark made to providers for outpatient services were correct.

Scope

Of the approximately 242 million line items for outpatient services that Highmark processed
during the period January 2006 through June 2009, 1,546 line items had (1) a Medicare line
payment amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more
units of service. 4 We reviewed only 1,507 of these line items because 8 providers associated
with 39 line items were either no longer in business or included in other reviews.

We limited our review of Highmark’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report includes all items with payments for line items that exceeded the billed charges by at
least $1,000. We will report the results of our review of all items with payments for line items
that exceeded billed charges by $500 to $1,000 separately in report number A-03-11-00004.

Our fieldwork included contacting Highmark in Camp Hill, Pennsylvania, and the 146 providers
in Jurisdiction 12 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

3
 Before October 24, 2007, providers processed Medicare outpatient claims through separate fiscal intermediaries.
On October 24, 2007, Highmark became the MAC for these States and is therefore responsible for collecting any
overpayments and resolving the issues related to this audit.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                          2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 5

    •   identified 1,507 line items, totaling $10,623,709, that Medicare paid to 146 providers;

    •   contacted the 146 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Highmark; and

    •   discussed the results of our review with Highmark on March 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 1,507 selected line items for which Highmark made Medicare payments to providers for
outpatient services during our audit period, 409 were correct. Providers refunded overpayments
on 71 line items totaling $1,970,562 prior to our fieldwork. The remaining 1,027 line items were
incorrect and included overpayments totaling $6,802,802 that the providers had not refunded by
the beginning of our audit.

Of the 1,027 incorrect line items:

    •   Providers reported incorrect units of service on 690 line items, resulting in overpayments
        totaling $5,297,006.

    •   Providers billed separately for services on 139 line items for which payment was
        packaged in the payment for the primary service, resulting in overpayments totaling
        $512,514.

    •   Providers used incorrect HCPCS codes on 73 line items, resulting in overpayments
        totaling $304,686.



5
 For this audit, we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.


                                                       3
   •   Providers billed for unallowable services on 60 line items, resulting in overpayments
       totaling $278,694.

   •   Providers billed for the unlabeled use of a drug/biological on 17 line items, resulting in
       overpayments totaling $146,847.

   •   Providers did not provide supporting documentation for 26 line items, resulting in
       overpayments totaling $128,116.

   •   Providers reported a combination of incorrect units of service and incorrect HCPCS
       codes on 13 line items, resulting in overpayments totaling $105,462.

   •   Highmark incorrectly calculated the payment on nine line items, resulting in
       overpayments totaling $29,477.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.”
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 690 line items, resulting in overpayments totaling
$5,297,006. Primarily, these overpayments occurred for two reasons:




                                                 4
    •    Seventy-three providers billed Medicare for 609 line items with incorrect service units
         involving 67 different drugs, biologicals, 6 and blood products. Rather than billing
         between 1 and 1,000 service units, providers billed between 4 and 40,607 service units.
         These errors occurred because of human error or because the provider’s chargemaster 7
         was incorrect. As a result of these errors, Highmark paid the 73 providers a total of
         $5,380,890 when it should have paid $606,149, an overpayment of $4,774,741.

    •    Thirty providers billed Medicare for 51 line items with an incorrect number of surgical
         procedures performed. Rather than billing for the number of surgical procedures
         performed, providers either billed the wrong number of procedures or billed for the units
         of time (e.g., minutes, quarter-hours, and hours) spent in the surgical suite. For each of
         the 51 cases, the provider performed only 1 or 2 surgical procedures but billed for
         between 3 and 105 services. As a result of these errors, Highmark paid the 30 providers a
         total of $526,889 when it should have paid $117,442, an overpayment of $409,447.

Payment for Packaged Services

Sixteen providers billed Medicare on 139 line items for services that were not separately payable
by Medicare. These services were billed as separately payable drugs rather than ordinary
pharmacy drugs that are packaged in the payment for the primary procedure. These errors
resulted in overpayments totaling $512,514. For example, 5 providers billed Medicare for 113
line items for the lipid formulation of doxorubicin hydrochloride (HCPCS code J9001) rather
than the nonlipid formulation of doxorubicin hydrochloride (HCPCS code J9000), the drug
actually administered. During the dates of service that the provider administered this drug,
Medicare included the nonlipid formulation in the payment for related chemotherapy and did not
provide for separate reimbursement under the outpatient prospective payment system. As a
result of these errors, Highmark incorrectly paid the provider $384,062.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS and other bill-processing codes 8 for 73 line items, resulting in
overpayments totaling $304,686. For example, 4 providers billed Medicare for 58 line items for
HCPCS code J9001 rather than HCPCS code J9000, the drug actually administered. 9 As a result,
Highmark paid the providers a total of $176,124 when it should have paid $2,709, an
overpayment of $173,415.


6
  Biologicals are substances made from a living organism or its products that are used to prevent, diagnose, treat, or
relieve symptoms of a disease.
7
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill.
8
 These bill-processing codes included value codes and revenue codes. Value codes identify necessary monetary
data related to the claim; revenue codes indicate the general category of service provided. Each code may affect the
processing and payment of the claim.
9
 Although Medicare did not pay separately for HCPCS code J9000 administered during calendar years 2006, 2008,
and 2009, Medicare did pay separately for HCPCS code J9000 administered during calendar year 2007.


                                                           5
Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 60 line items for which the services provided were not
allowable for Medicare reimbursement, resulting in overpayments totaling $278,694. Primarily,
these overpayments occurred because 14 providers billed Medicare for 59 line items for dental
procedures that were not covered outpatient services. According to the Medicare Benefit Policy
Manual (Pub. No. 100-02, chapter 15, section 150), “items and services in connection with the
care, treatment, filling, removal, or replacement of teeth or structures directly supporting the
teeth are not covered” by Medicare, unless the dental procedure is an integral part of another
procedure covered by Medicare. None of the 59 dental services billed was an integral part of
another covered procedure. As a result of these errors, Highmark incorrectly paid the providers
$275,558.

Unlabeled Use of a Drug/Biological

Two providers billed Medicare for the unlabeled use of the biological Retavase for 17 line items,
resulting in overpayments totaling $146,847. Retavase is approved by the Food and Drug
Administration (FDA) to treat cardiac conditions using a single-use dose (18.1 mg). However,
the providers split a single labeled dose into 25 separate “mini” doses and used each mini dose as
a thrombolytic 10 agent to clean dialysis patient catheters. The providers then billed Medicare for
a full single-use dose of Retavase for each mini dose administered. According to the Medicare
Benefit Policy Manual (Pub. No. 100-02, chapter 15, section 50.4.2):

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis. [Emphasis added.]

Providers must identify on their claims that the billed service was for the unlabeled use of a drug
or biological. 11 However, providers submitted these line items as if the single-use dose was
administered for the labeled use. Consequently, Highmark did not know that the 17 line items
were for an unlabeled use that required a case-by-case payment determination and incorrectly
paid the 2 providers $146,847.




10
  The Medicare Claims Processing Manual, Pub. No. 100-4, chapter 8, section 60.2.1.1, identifies “thrombolytics:
used to declot central venous catheters” as a separately billable drug used to treat a patient’s renal condition.
11
  Providers should indicate the unlabeled use of a drug or biological in the comments section of the claim. In
addition, beginning July 11, 2008, Highmark required providers to use modifier “KX” on each claim line billed for
an unlabeled use of a drug or biological to verify that the documentation requirements of Pub. No. 100-02,
chapter 15, section 50.4.2, have been met. (See Approved Drugs and Biologicals; Includes Cancer
Chemotherapeutic Agents (Highmark Billing & Coding Article A47797, July 11, 2008, revised April 13, 2011)).


                                                        6
Unsupported Services

Fifteen providers billed Medicare for 26 line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items or file adjusted claims to refund the combined $128,116 in overpayments that they
received.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 13 line items. These errors resulted in overpayments totaling $105,462. The following
examples illustrate the combination of incorrect number of units of service claimed and incorrect
HCPCS codes used:

     •   One provider billed Medicare for 450 units of 6-mg adenosine for therapeutic use
         (HCPCS code J0150). However, the provider should have billed for three units of 30-mg
         adenosine for diagnostic use (HCPCS code J0152), the dose actually administered.
         Similar errors occurred on a total of three line items that this provider submitted. As a
         result of these errors, Highmark paid the provider $44,025 when it should have paid
         $561, an overpayment of $43,464.

     •   Another provider billed Medicare for 1 line item for 19 unlisted laparoscopy procedures
         (HCPCS code 49659) rather than for 1 repair of an umbilical hernia (HCPCS code
         49585), the procedure actually performed. As a result of this error, Highmark paid the
         provider $12,921 when it should have paid $688, an overpayment of $12,233.

Incorrect Medicare Reimbursement

One provider correctly billed Medicare for 9 line items for 9 to 14 units for intermittent
peritoneal dialysis treatments using the appropriate revenue code. According to the provider,
Highmark told the provider that the Medicare payment system appeared to have paid an incorrect
amount. Highmark paid the provider $44,215 when it should have paid $14,738, an
overpayment of $29,477.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 12


12
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         7
On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that Highmark:

   •   recover the $6,802,802 in identified overpayments,

   •   implement system edits that identify line item payments that exceed billed charges by a
       prescribed amount, and

   •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Highmark’s comments are included in their entirety as the Appendix.




                                                  8
APPENDIX
                                                                                        Page 1 of 2
            APPENDIX: HIGHMARK MEDICARE SERVICES COMMENTS




July 22, 2010

RE: Report Number A-03-10-00004

Mr. Stephen Virbitsky
Regional Inspector General
Office of Audit Service, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499


Dear Mr. Virbitsky,

This letter is in response to your letter dated June 28, 2011, regarding the draft report for audit
number A-03-10-00004, Review of Medicare Payments Exceeding Charges for Outpatient
Services Processed by Highmark Medicare Services in Jurisdiction 12 for the Period January 1,
2006 Through June 30, 2009.

HMS was the legacy contractor for Pennsylvania and Maryland/District of Columbia (Part A)
during the scope of this audit. HMS began processing claims associated with Delaware, the DC
metropolitan area, Maryland (Part B) and New Jersey in 2008 as part of the Medicare
Administrative Contractor Jurisdiction 12 transition.

Recommendation that Highmark recover the $6,802,802 in identified overpayments:

Response: Highmark Medicare Services (HMS) has been working the overpayments in
accordance with the applicable IOM and will coordinate recoveries outside of that guidance with
the J12 COTR.

Finding: Highmark incorrectly calculated the payment on nine line items, resulting in an
overpayment of $29,477.

HMS reviewed the claims associated with the finding. We concur with this statement and will
recover the overpayment per established guidelines.

We also concur with the OIG’s characterization that at the time HMS made the incorrect
payments neither the Fiscal Intermediary Standard System not CWF had sufficient editing in
place to prevent or detect the overpayment.




                                              P.O. Box 890089
                                             Camp Hill, PA 17089
                                      www.highmarkmedicareservices.com
                                                                                        Page 2 of 2




Recommendation that Highmark implement system edits that identify line item payments that
exceed billed charges by a prescribed amount:

Response: HMS is conducting analysis of the issue and will be reviewing corrective actions
during our next scheduled MIP meeting. Any identified vulnerabilities will be pursued following
the prescribed progressive corrective action process.

Recommendation that Highmark use the results of this audit in its provider education
activities:

Response: HMS will use the findings listed to develop targeted provider education
opportunities.

If there are any other questions or concerns, please do not hesitate to contact me at (717) 302-
4410 or Michele Daley-Ryan at (717) 302-7516.

Sincerely,




/E. James Bylotas/
Director, Quality and Performance Management
